                                    U.S. Department of the Interior
                                         Office of Inspector General

                                 AUDIT REPORT




          U.S. Department of the Interior

        Radio Communications Program

                 Report No. C-IN-MOA-0007-2005

                                       January 2007

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                            EXECUTIVE SUMMARY
                                  WHAT WE FOUND
   DOI HAS OVER
   100 RADIO SITES IN             The U.S. Department of the Interior (DOI) has an unsafe and
   EXTREMELY POOR                 unreliable radio communications environment that jeopardizes
   OR HAZARDOUS                   the health and safety of DOI employees and the public.
   CONDITION, WHICH
   POSE AN IMMEDIATE              The results of this audit demonstrate that radio
   RISK OF INJURY OR              communications in DOI are unsafe and unreliable because:
   DEATH TO
   EMPLOYEES AND THE                   ¾ The poorly maintained infrastructure poses physical
   PUBLIC.                               safety hazards, and does not support reliable
                                         communications.

                                       ¾ The new radio technology adopted by DOI does not
WHY WE DID THIS                          effectively meet users’ needs.
AUDIT
Effective radio                        ¾ DOI has a fragmented radio communications program
communication is critical                that fails to connect the two critical components –
to employee and public                   infrastructure and equipment.
safety and the efficient
management of our public          Technical studies have identified over 100 DOI radio sites in
lands.                            poor or hazardous condition. These conditions result in
                                  physical safety hazards that pose an immediate risk of injury
The Inspector General has         or death to employees and the public. Safety hazards include
identified radio                  insufficient grounding of towers, improperly installed
communication as a                equipment, overloaded radio towers, and lack of security
critical component of             fences. The poorly maintained infrastructure also contributed
Health, Safety and                to unreliable radio communications, putting employees at risk
Emergency Management,             during emergency situations. This situation has primarily
which was one of DOI’s            occurred because of decentralized management of the radio
Top Management                    communications program.
Challenges for FY2004
through FY2006.                   We found that the mandate issued by the Office of the Chief
Our audit objective was to        Information Officer (OCIO) in 1998 to purchase advanced
determine whether DOI             digital radios failed to consider user needs, did not include
and its bureaus effectively       adequate training, and contributed to DOI’s failure to meet the
managed the radio                 federal requirement to transition to narrowband technology by
communications program.           January 1, 2005. Our audit identified approximately $25

                                                            i

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                  million in unnecessary expenditures because of this mandate.
                                  Additionally, we estimate that one bureau could still save
                                  approximately $10.5 million if it were exempted from this
                                  mandate.

                                  Two separate DOI entities hold responsibility for radio
                                  equipment and radio communications infrastructure.
                                  Equipment needs are subject to one internal DOI process,
                                  while infrastructure needs are governed by another. As a
                                  result, both components necessary for the DOI radio
                                  communications program are ineffective.

                                  Without fundamental changes to the radio communications
                                  program, DOI will continue to jeopardize the safety of its
                                  employees and the public and squander resources. Given the
                                  critical nature of radio communications and the seriousness of
                                  the issues we identified, we believe that the radio
                                  communications program remains a material weakness for
                                  DOI. In 2004, however, DOI downgraded the radio
                                  communications program from a Departmental level material
                                  weakness to a bureau level material weakness for only two
                                  bureaus, without conducting the required Management
                                  Review.

                                  To address deficiencies in its radio communications program,
                                  DOI should consolidate management and funding of both the
                                  radio equipment and related infrastructure under the OCIO.
                                  The OCIO should then appoint a credentialed project manager
                                  to oversee the program and develop a Department-wide plan
                                  for radio communications. Our report provides a series of
                                  recommendations intended to help improve the safety and
                                  reliability of the program, better manage costs, and meet the
                                  narrowband requirement. Additionally, as part of our audit,
                                  we identified suggestions from DOI employees in the radio
                                  communications program and best practices used by other
                                  federal agencies to improve program operations. The OCIO
                                  should consider these suggestions and best practices in
                                  developing its comprehensive management plan.

                                  DOI’s response to the draft report, included as Appendix 6,
                                  agreed that improvements can be made in the areas
                                  highlighted in the report; however DOI expressed concern that
                                  our report did not reflect recent progress made and the current
                                                           ii

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                  status of the radio communications program. DOI provided
                                  specific examples where progress was made by the Bureau of
                                  Land Management (BLM) and the Fish and Wildlife Service
                                  (FWS). We updated our testing to address these examples and
                                  found that DOI’s assertions of improvement were not
                                  accurate. DOI disagreed with all but one of our
                                  recommendations. Based on DOI’s response and to clarify
                                  our intent, we revised two recommendations. The remaining
                                  recommendations are unchanged from our draft report.




                                                           iii

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                          TABLE OF CONTENTS
                                                                                                                     PAGE


INTRODUCTION .....................................................................................................    1

         BACKGROUND .............................................................................................     1

RESULTS OF AUDIT ...............................................................................................      4
     UNSAFE AND DETERIORATING INFRASTRUCTURE ...................................                                      4
     UNRELIABLE RADIO COMMUNICATIONS .................................................                                9
     WASTE OF DEPARTMENTAL RESOURCES .................................................                                13
     FAILURE TO MEET THE NARROWBAND CONVERSION
        DEADLINE……………………………………………… ....………..                                                                          17
     INAPPROPRIATE DOWNGRADING OF A DEPARTMENTAL MATERIAL
     WEAKNESS ...............................................................................................         17
     DEPARTMENT-WIDE APPROACH NEEDED TO MANAGE RADIO
        COMMUNICATION ..............................................................................                  18
STAKEHOLDER/USER SUGGESTIONS AND BEST PRACTICES...........................                                            22
RECOMMENDATIONS .........................................................................................             23
APPENDICES
         1. OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................                              29
         2. ACRONYMS AND ABBREVIATIONS .....................................................                          33
         3. PRIOR AUDITS ....................................................................................         34
         4. STAKEHOLDER/USER SUGGESTIONS AND BEST PRACTICES ..............                                            36
         5. SCHEDULE OF MONETARY IMPACT ....................................................                          39
         6. DOI’S RESPONSE TO DRAFT REPORT .....................................................                      40
         7. STATUS OF AUDIT RECOMMENDATIONS ................................................                          49

                                                  Cover Photo Credits
                                  Forest photos provided by the National Park Service
                                          Tower photo provided by [Exemption 6]

                                                                  iv

This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                              INTRODUCTION
                             This report presents the results of our audit of the Department of the
                             Interior’s (DOI) radio communications program. The objective of our audit
                             was to determine whether DOI and its bureaus are effectively managing the
                             radio communications program. Specifically:
                                  ¾ Are they updating aging and unsafe radio infrastructure?

                                  ¾ Are they using their resources efficiently?

                                  ¾ Has the mandate to transition to narrowband technology been met?


                                                                 BACKGROUND

                             DOI and its bureaus use land mobile radio (LMR) communication systems
                             to carry out critical day-to-day operations. Some of DOI’s activities that use
                             radios include law enforcement, fire fighting, seismic monitoring, park
                             management, and water management.

                                  GENERAL RADIO COMMUNICATION SYSTEM OPERATIONS

                             An LMR system is comprised of equipment, such as handheld radios,
                             vehicle-mounted mobile radios, dispatch consoles, and one or more radio
                             repeaters. A repeater is a device that receives a signal and then retransmits it
                             to allow the signal to travel greater distances. Depending on the size of the
   WHEN A USER               geographical area covered, an LMR system can have one repeater or a
   TRANSMITS A               network of repeaters. The dispatch console is typically located at an
   MESSAGE ON                organization’s headquarters and is used to communicate to all the system
   HIS/HER RADIO, THE
                             users through a network of repeaters. Figure 1 illustrates a traditional LMR
   REPEATER RECEIVES
                             system.
   THE TRANSMISSION
   AND THEN
   REBROADCASTS THE
   COMMUNICATION TO
   OTHER HANDHELD
   AND MOBILE RADIOS
   WITHIN THE RADIO
   SYSTEM.



                                                         Figure 1 – Traditional LMR System


                                                            1
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             LMR systems also require towers to hold the repeaters and protective
                             housing to shelter the radio equipment. The towers and housing required to
                             operate the radio equipment are referred to as the radio “infrastructure.”
                             Figure 2 illustrates the infrastructure at a typical repeater station.




   .




                                 Figure 2 – Diagram of a Typical Repeater Station Detailing Required Infrastructure

                             There are a variety of radio technologies available, including analog and
                             digital. Analog technology uses radio waves to transmit voice
                             communications. Digital technology transfers voice communication in bits
                             of information that are reassembled at the receiving end. While digital
                             radios offer additional capabilities such as encryption, they also require
                             more extensive infrastructure to operate. For example, digital networks
                             typically require more repeaters and additional power to operate effectively.

                             Radios transmit signals on frequencies within specific bandwidths of the
                             radio spectrum. Prior to 1993, very high frequency (VHF) federal radio
                             systems used frequencies that were 25 kilohertz-wide (kHz). Since there are
                             a limited number of 25 kHz frequencies within the federal radio spectrum,


                                                            2
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             the only way to increase the number of available frequencies is to use radios
                             that can broadcast using reduced bandwidth. Reducing frequency spacing to
                             12.5 kHz (narrowband) effectively doubles the number of frequencies
                             available within the federal spectrum.

   THE NTIA                  The National Telecommunications and Information Administration (NTIA)
   MANDATED THAT             manages the federal radio spectrum. In an effort to make more efficient use
   ALL FEDERAL VHF           of radio spectrum, in October 1993, NTIA mandated that all federal VHF
   RADIOS HAVE               radios operate using narrowband technology by January 1, 2005. Both
   NARROWBAND
                             analog and digital radios can operate in narrowband mode. NTIA allowed
   CAPABLITY BY
                             agencies to decide whether to adopt analog, digital, or a combination of the
   JANUARY 1, 2005.
                             two technologies to meet this mandate.

                             In 1996, the Office of the Chief Information Officer (OCIO) adopted the
                             Association of Public Safety Communications Officials (APCO) Project 25
                             (P25) standards for digital narrowband radio equipment as the Departmental
                             standard. P25 standards were developed to help address the NTIA
                             narrowband mandate as well as to address the need of the public safety
                             community for secure communications and the quality of digital
                             transmission. One benefit of P25 compliant radios is that they can work in
                             either analog or digital mode. In 1998, because of the perceived benefits at
                             the time, the OCIO directed bureaus to transition all analog wideband LMR
                             systems to P25 digital narrowband operation by January 1, 2005.




                                                            3
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                        RESULTS OF AUDIT
                            We found that DOI and its bureaus do not have an effective radio
                            communications program. Specifically, they:
DOI AND ITS BUREAUS
ARE NOT EFFECTIVELY
                                 ¾ are not updating aging and unsafe radio infrastructure,
COORDINATING THEIR
TECHNICAL RADIO
SERVICES WITH
                                 ¾ are not using their resources efficiently, and
FACILITIES
MANAGEMENT TO                    ¾ have not met the mandate to transition to narrowband technology.
OPERATE AN EFFECTIVE
RADIO                       The results of this audit demonstrate that radio communications in DOI are
COMMUNICATIONS              unsafe and unreliable because of three factors. First, poorly maintained
PROGRAM.                    infrastructure poses physical safety hazards and does not support reliable
                            communications. Second, new radio technology adopted by DOI does not
                            meet all users’ needs. Third, DOI has a fragmented radio communications
                            program that fails to connect the two critical components – infrastructure and
                            equipment.

                            In addition to the safety and reliability issues, we also found that the OCIO’s
                            mandate to purchase advanced P25 digital radios resulted in the purchase of
                            radios that did not meet user needs. Our audit identified the unnecessary
                            expenditure of approximately $25 million at two DOI bureaus because of this
                            mandate. Prospectively, we estimate that one bureau could still save
                            approximately $10.5 million if it were exempted from this mandate in the
                            future.

                            Finally, we found that DOI downgraded its radio communications program
                            material weakness from a Departmental level to a bureau-level material
                            weakness for only two bureaus, without conducting the required
                            Management Review.


                                         UNSAFE AND DETERIORATING INFRASTRUCTURE

                            DOI and its bureaus have allowed their radio communications infrastructure
                            to lapse into poor and hazardous condition. The bureaus are not performing
                            formal, routine site assessments to ensure the radio infrastructure meets
                            Occupational Safety and Health Act (OSHA) requirements and they are not


                                                             4
 This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
 Information Act.
                                                             .
                            taking action to mitigate known hazards. By its failure to mitigate safety
                            hazards, DOI risks serious injury or death to employees and the public.

                            The Bureau of Indian Affairs (BIA) and the Bureau of Land Management
                            (BLM) have begun to formally assess the current conditions of their radio
                            infrastructure. During 2003, BIA hired an engineering firm to assess the
                            safety and condition of its radio sites nationwide. The BLM Colorado State
                            Office hired the same engineering firm to assess the safety and condition of
                            all sites in its state.

                            The results were categorized as follows:

                                A Excellent conditions with no safety or operational issues identified
                                B Good conditions with only minor operational issues identified
                                C Marginal conditions with several minor safety or operational issues
                                  identified
                                D Poor conditions with several major safety issues and risk of injury or death
                                F Extremely poor/hazardous conditions with immediate risk of injury or death

                            At BIA, 86 percent of its 157 radio sites nationwide were in poor (D) or
                            extremely poor condition (F) with risk of injury or death. Only three percent
                            were rated as excellent (A).


                                                           BIA Site Assessments
EIGHTY-SIX PERCENT OF
BIA’S 157 RADIO SITES
                                                                           A    B      C
NATIONWIDE WERE IN
                                                                          3%   3%     8%
POOR OR EXTREMELY                                                                             D
                                                                                             6%
POOR CONDITION WITH
RISK OF INJURY OR
DEATH.

                                                        F
                                                       80%




                                                             5
 This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
 Information Act.
                                                             .
                            At BLM, 56 percent of its 16 radio sites in Colorado were in poor (D) or
                            extremely poor condition (F) with risk of injury or death. None of the sites
                            were rated as excellent (A).


                                                          BLM Site Assessments


                                                             F           A          B
FIFTY-SIX PERCENT OF
                                                            13%         0%         13%
BLM’S 16 RADIO SITES
IN COLORADO WERE IN
POOR OR EXTREMELY
POOR CONDITION WITH                                                                              C
RISK OF INJURY OR                                  D                                            31%
DEATH.                                            43%




                             During 2003, the BLM National Interagency Fire Center (NIFC) Wireless
                             Group performed assessments at sites in [Exemption 2]. The group
                             identified numerous safety hazards. For example, in Colorado the report
                             stated: "It is apparent from the condition of some of the radio sites that
                             proper maintenance, equipment upgrades and upkeep of these sites has not
                             been performed for several years."

                             BLM also performed a comprehensive nationwide assessment of all towers
                             supporting BLM equipment. As of December 2003, 58 (10 percent) of the
   [EXEMPTION 2]             553 towers that support BLM equipment were considered to be in
                             catastrophic or critical condition. In December 2006, DOI stated that only
                             six towers currently remained in poor condition and that documentation on
                             the current condition of these towers was available in BLM’s Facility Asset
                             Management System (FAMS). However, we found:

                                 ¾ FAMS data did not support that only six of these towers remained in
NEW TOWER (LEFT)                   poor condition. FAMS had inaccurate and incomplete information
ERECTED IN FY2004                  regarding tower condition. Less than half of the towers had records
NEXT TO THE OLD                    in FAMS. For those towers that were in FAMS, none were identified
TOWER (RIGHT), BUT
                                   as being in poor condition.
THE NEW TOWER IS NOT
IN USE. THE OLD,
                                 ¾ BLM radio technicians reported that at least 19 of these towers
UNSAFE TOWER IS THE
                                   remained in poor condition, including 9 towers inaccurately recorded
ONE STILL BEING USED.
                                   in FAMS as being in good condition.


                                                            6
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                            This tower was built by stacking two            This tower was not listed in the FAMS
                            components, making it unsafe to climb.          system, but has broken rungs and was in
                            Other than the attached notice, no              the 2003 BLM tower report as in critical
                            measures were taken to restrict public          or catastrophic condition.
                            access. FAMS lists the tower as in good
                            condition, although it poses a safety
                            hazard to both employees and the public.

THE FULL EXTENT OF          Since the number and extent of site assessments has been limited, the full
THE SAFETY HAZARDS          extent of safety hazards Department-wide is unknown.
DEPARTMENT-WIDE IS
UNKNOWN.                     We reviewed BLM site condition reports and, with the assistance of bureau
                             radio specialists, independently verified conditions at six BLM sites. We
                             also visited one Bureau of Reclamation (BOR) site. Some of the safety
                             hazards we observed during our site visits included:

                                 ¾   insufficient grounding of towers, antennas, and buildings;
                                 ¾   cables not properly installed and grounded;
                                 ¾   insufficient weatherproofing;
                                 ¾   improperly installed equipment;
                                 ¾   overloaded radio towers;
                                 ¾   no security fences; and
                                 ¾   equipment buildings in poor condition.

                            Overall, we found that the sites were unsafe for employees and the general
                            public. The following examples illustrate the severity of the situation.




                                                            7
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             The [Exemption 2] radio site in [Exemption 2], has an aged building with a
                             leaky roof causing damage to the equipment. There are approximately 80
THE BLM CONTRACTOR           lead acid batteries being used at the site. Most of these batteries are poorly
CONCLUDED THIS SITE          maintained, not protected, and corrosion is evident. Consequently, there is
WAS IN SUCH A STATE          the potential of exposing employees and the public to harmful vapors.
OF DISREPAIR THAT IT
“IS AN ACCIDENT                                                                                Contractor Photos
WAITING TO HAPPEN.”




                            The BIA contractor identified radio sites that had massive rodent
                            infestations, including nests in the radio equipment and droppings
                            throughout the buildings. The infestations pose a threat of rodents
                            destroying electrical equipment and transmitting disease to humans.

                                                                                            Contractor Photos




                             LIABILITY RISKS

                             Although most of these sites are located in remote areas, they are accessible
                             to campers and hikers. There are roads and trails that lead directly to these
                             sites. During our site visits, we observed evidence of the public using the
                             land immediately surrounding the radio sites.


                                                            8
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             Failure to mitigate these known safety hazards makes DOI vulnerable to
                             unnecessary liability arising from injuries to employees and the public.
                             OSHA mandates the head of each agency ensure that employees have a safe
                             work environment, develop a plan to address known deficiencies, and
                             require that qualified personnel perform routine site assessments. Public
                             access to these towers and facilities further increases DOI’s overall risk of
                             liability. Despite the contractor reports and the obvious risks to employees
                             and the public, the bureaus continue to have difficulty obtaining the
                             necessary funding to correct these infrastructure deficiencies.

                             To address these issues, management needs to develop a plan with dedicated
                             funding to ensure the assessments are completed timely and corrective action
                             promptly follows. Until corrective actions are completed, warning signs
                             should be posted to alert employees and the public of identified hazardous
                             conditions.


                                                UNRELIABLE RADIO COMMUNICATIONS

                             We also found that DOI does not have a reliable radio communications
                             system to support the safety of its employees and the public. This has
                             become evident in emergency situations where individuals had difficulty
                             communicating. There are three factors that negatively affect the reliability
                             of the communications program.

                                 ¾ The infrastructure does not always support reliable communications.

                                 ¾ New radio technology adopted by DOI does not meet all users’
                                   needs.

                                 ¾ DOI’s fragmented management of the radio communications
                                   program fails to connect the two critical components – infrastructure
                                   and equipment.

                             IMPACT OF INFRASTRUCTURE ON COMMUNICATIONS

                             In addition to the physical safety hazards already described, the condition of
                             the radio infrastructure also affected employees’ ability to communicate. If
                             a repeater is not properly installed or maintained, this vital element of the
                             network can render the user unable to communicate as intended. The
                             following examples illustrate the significance of infrastructure as part of
                             communications.

                                                            9
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                 ¾ In 2004, a BIA law enforcement officer at a remote site in
                                   [Exemption 2] was injured when attacked by a dog. When he
                                   attempted to call for help on his radio, he was unable to communicate
“THE COMMUNICATIONS                because the equipment located at the transmission tower was
SYSTEM’S PROBLEMS                  improperly installed. As a last resort, the officer shot and killed the
STEM FROM THE                      dog to protect his life. A passerby found the officer and was able to
ABSENCE OF DIRECT                  provide assistance.
OVERSIGHT.”
FIRE AND AVIATION SAFETY         ¾ In 2003, a fireman in [Exemption 2] was on his way to an ongoing
TEAM 2005 REPORT                   fire when he attempted to communicate information to dispatch, but
                                   was unable to do so from multiple locations. After over 3 hours of
                                   failed communication, the fireman ultimately had to find another
                                   crew to report to dispatch. Later he found out that he was unable to
                                   communicate because at least one of the repeaters in the area had
                                   been inoperable for some time.

                             MANDATED TECHNOLOGY DOES NOT ALWAYS MEET USERS’ NEEDS
                             Published reports, and our site visits, also identified other communications
                             reliability issues relating to the mandated use of P25 equipment. Users
                             stated that the radios:

                                 ¾ were too heavy for people working in remote areas;

                                 ¾ were too difficult to operate for some users; and

                                 ¾ had insufficient battery life for use needed in the field.

“WE HAVE BEEN WELL           The wildland fire community has an incident reporting system called
AWARE OF THE                 SAFENET. In the SAFENET FY2005 summary report, communications
PROBLEMS WITH OUR            incidents accounted for 38 percent of all reports filed that year.
RADIO SYSTEM. IT IS TO       “Communications incidents” is one of six incident reporting categories --
THE POINT NOW, WHEN
                             which includes equipment failures or ineffectiveness as well as problems
WE LEAVE THIS OFFICE
                             with personal communications between individuals. An increasing number
WE PLAN ON EITHER NOT
HAVING ANY
                             of submissions highlighted difficulties associated with the P25 radio
COMMUNICATIONS, OR           technology mandated by the OCIO. Many SAFENET reports demonstrate
LOSING IT SOMETIME           that P25 equipment led to difficulties in communicating during emergency
DURING THE DAY.”             situations and jeopardized employee safety. For example, in July 2005, a
FIRE ENGINE BOSS FROM        BLM helicopter manager reported that during the initial attack of a fire in
NIFC SAFENET                 [Exemption 2], the handheld radio speaker stopped working. This resulted
                             in having no communications with the helicopter, air attack, and other
                             ground resources until additional trucks arrived on the scene.


                                                            10
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             The incidents reported in the SAFENET system are individually entered by
                             staff as problems arise. However, the entries are not mandatory and
                             individuals enter incidents as they themselves deem necessary, thus not all of
                             the incidents may contain complete details. In fact, when we spoke with a
                             fire safety management team in September 2005, they indicated that
                             frustration with addressing communications issues in the SAFENET system
                             has resulted in them hesitating to report problems at all anymore.

                             Another review performed by the NIFC Safety Team in September 2005,
                             found similar issues such as:

                                 ¾ faulty equipment,
                                 ¾ battery limitations,
                                 ¾ radio incompatibility, and
                                 ¾ difficulty programming the radios.

                             During our site visit to the [Exemption 2] of the National Park Service
                             (NPS), employees informed us that the limited battery life of P25 radios
                             restricted their ability to communicate in search and rescue operations.
                             Additionally, the radios did not provide adequate coverage to support
                             researchers, rangers, and volunteers that work days at a time in remote and
                             rugged areas. P25 radios require three to five times more batteries than
                             analog radios for the same useful life. Some NPS staff require 80 hours of
                             radio usage to be able to perform their routine field operations. The digital
                             radios and batteries required for 80 hours of use weigh three to four times
                             the weight of analog radios and batteries. The following photograph
                             illustrates the difference in volume and weight that staff would have to carry
                             in the [Exemption 2] for analog compared to two models of digital radios.




                                                            11
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                  NPS Photo




P25 RADIOS REQUIRE
THREE TO FIVE TIMES
MORE BATTERIES THAN
ANALOG RADIOS.




                                           Narrowband            Model #1                Model #2
                                            Analog               P25/Digital             P25 Digital

                             An NPS ranger told us that it is impractical to carry enough batteries to
                             sustain sufficient communications in performing routine work such as day or
                             overnight hikes into back areas of national parks. Instead, NPS employees
                             limit the amount of time they use their radios, reserving them only as a link
                             for help in an emergency.

                             In November 2002, NPS received a waiver from the Assistant Secretary for
                             Policy, Management and Budget to purchase analog narrowband equipment
                             for non-emergency service functions, such as maintenance and
                             interpretation, rather than the mandated digital equipment. The justification
                             for this waiver included ensuring that park non-priority functions continue
                             and to prevent a communications breakdown. However, the OCIO informed
                             us that it convinced the Assistant Secretary that allowing the bureaus to
                             purchase the analog narrowband equipment for any reason would ultimately
                             be a waste of funds. Although the OCIO could not provide any support that
                             the waiver had been formally rescinded, the bureaus have only been allowed
                             to purchase P25 radios. As a last resort, some NPS staff have purchased
                             analog narrowband radios with their own money to ensure their personal
                             safety.

                             USERS HAVE NOT ALWAYS RECEIVED ADEQUATE TRAINING
                             We also found that DOI and its bureaus often failed to provide adequate
                             training when they purchased digital radios. According to the NIFC 2005
                             Fire and Aviation Safety Team (FAST) review, the P25 digital radios are
                             difficult to program and DOI employees did not receive adequate training.

                                                            12
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             The group of field users told us that they have consistent equipment and field
                             training for everything but the radio equipment. The Department allows the
                             bureaus to purchase their P25 radios from a variety of approved
                             manufacturers, which all have their own functions and style. The users are
                             then expected to learn the radios themselves or get training on their own.
                             Technologically advanced radios provide little benefit if the infrastructure is
                             not capable of supporting the advanced equipment and the users are unable
                             to operate the radios effectively.
                             To remedy this situation, the OCIO needs to develop and implement a
                             comprehensive radio communications management plan which would
                             include, at a minimum, the following:

                                 ¾ addressing the deteriorating infrastructure,

                                 ¾    identifying the specific user groups,

                                 ¾ assessing the specific user groups’ needs,

                                 ¾ ensuring all user groups are provided radios appropriate for their
                                   needs;

                                 ¾ ensuring all user groups are provided adequate training on radio use,
                                   and

                                 ¾ issuing and enforcing guidance that meets all of their needs.


                                              WASTE OF DEPARTMENTAL RESOURCES

                             The OCIO failed to conduct enough due diligence when mandating that only
                             P25 digital radios be purchased. This is evidenced by the fact that they
                             implemented this mandate before the technology was fully developed to
                             meet the P25 standard, the attendant infrastructure was upgraded, user needs
                             were determined, and a cost-benefit analysis was performed. As a result of
                             the OCIO’s mandate, valuable resources were wasted.

                             Numerous problems were identified with the P25 technology, which resulted
                             in additional expenditures. For example:



                                                            13
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                 ¾ Purchase of Replacement Radios: BLM spent an estimated $4.7
                                   million on P25 radios recommended by the OCIO’s working group
                                   that the users found inadequate because of battery failure, inadequate
                                   speaker volume, continuous feedback, and radio failure for unknown
                                   reasons. BLM then had to spend an additional $2.8 million for
                                   replacement P25 radios.
                                 ¾ Cost of Multiple Upgrades and Extensive Maintenance: At the
                                   [Exemption 2] and the [Exemption 2], technicians have spent
                                   hundreds of hours upgrading the new P25 radios, costing almost
                                   $43,000 in labor. A bureau radio technician stated that “We’re all
                                   short of time, money, and manpower and to have to spend [hundreds
                                   of] manhours simply upgrading radios . . . that is time away from
                                   important work.”

                                       We found that over half of the P25 radio inventory at [Exemption 2]
                                       has not been able to be used for nearly 2 years because the radios are
                                       awaiting software revisions. The purchase price of this inventory is
                                       estimated at $456,000

                                                                                                     NPS Photos




                                         P25 Radios Valued at $456,000 in Storage Not Being Used

                                 ¾ Lack of Technical Expertise to Upgrade P25 Radios: NIFC
                                   reported that personnel at the BLM [Exemption 2] did not have the
                                   technical expertise, training, or personnel to properly upgrade their
                                   radios. As a result, in FY2005 they had to pay to ship 170 P25 radios
                                   to NIFC in [Exemption 2] for the upgrades.

                                 ¾ Purchasing Digital Capability Not Used: Digital radio
                                   communications require a more extensive network in order to receive
                                   an adequate signal over long distances and mountainous terrain.
                                   Mountainous terrain can, in some circumstances, restrict the digital
                                   signal. Figure 3 illustrates how coverage gaps can occur due to

                                                            14
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                      obstructions and the inability to place repeaters where needed. P25
                                      digital systems are more prone to coverage gaps and thus require
                                      more repeaters than analog systems. In the absence of upgraded
                                      networks, some bureaus continue to operate their P25 equipment in
                                      analog mode. These bureaus are therefore paying for a more
                                      expensive digital capability that they are not using.


REPEATERS CANNOT
ALWAYS BE PLACED
WHERE NEEDED FOR
DIGITAL TRANSMISSION
DUE TO GEOGRAPHIC OR
ENVIRONMENTAL
LIMITATIONS.




                                           Figure 3 – Traditional LMR System Coverage for Network With
                                                          Geographically Dispersed Users


                             The cost of P25 radio equipment is significantly higher – up to 24 times
                             higher – than comparable analog equipment. A P25 radio costs between
                             $1,350 and $2,897 while a narrowband analog radio costs between $119 and
                             $770. P25 technology has not been sufficiently developed to justify the
                             excessive cost for all users. By allowing the purchase of analog radios in
                             appropriate situations, DOI could have saved between $580 and $2,778 per
                             radio.
                             Below, we present two specific examples of the waste that occurred as a
                             direct result of the decision to convert to P25 technology. In both examples,
                             the bureaus could have purchased narrowband analog equipment to comply
                             with the NTIA mandate, to meet users’ needs, and to save funds. The
                             additional $19.8 million spent on P25 digital radios by these two bureaus
                             could have been spent more effectively to update their infrastructure.
                             THE P25 MANDATE RESULTED IN A WASTE OF $15.7 MILLION FOR BLM
“THE MANDATE WAS
TO PURCHASE [P25             BLM reported that as of September 2004 it had spent $22.9 million to
RADIOS], NOT TO USE          purchase P25 equipment that it continues to use in analog mode. BLM’s
THEM.”                       existing infrastructure is insufficient to operate effectively in the digital
A BUREAU RADIO               mode. Without an upgraded network, the encryption and other capabilities
TECHNICIAN                   of P25 digital technology cannot be utilized. BLM does not have the
                             necessary funding or plans to reengineer its existing infrastructure, let alone

                                                            15
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             acquire the additional infrastructure needed to operate P25 radios in the
                             digital mode. BLM notified the OCIO of these issues, but the mandate to
                             purchase only P25 equipment was never re-evaluated. The OCIO’s rationale
                             was that the P25 technology should work and they did not want the bureaus
                             purchasing what they considered to be technology (analog narrowband
                             technology) that was rumored to soon be obsolete.

                             BLM could have bought the same amount of analog narrowband equipment
                             for $7.2 million, which would have saved $15.7 million since it began the
                             transition to narrowband radios. These analog radios would have still
                             complied with the NTIA narrowband mandate, and would operate with the
                             same transmission capability as using the P25 radios in analog mode.

                             THE P25 MANDATE RESULTED IN A WASTE OF $4.1 MILLION
                             FOR NPS [EXEMPTION 2]

                             As a result of the OCIO’s mandate to convert to P25 radios, the [Exemption
                             2] of the NPS spent $8.1 million on radio equipment that did not meet user
                             needs. The required P25 radios were too heavy, did not have sufficient
                             battery life, and did not have adequate coverage to support the researchers,
                             rangers, and volunteers that work in remote and rugged areas. [Exemption
                             2] could have purchased analog narrowband equipment that met its safety
                             and practical needs and complied with the NTIA mandate for only $4
                             million.

                             These two examples identify almost $19.8 million of scarce DOI resources
                             that could have been put to better use. We were unable to estimate the full
                             cost effect of the P25 mandate because not all bureaus had comparable cost
                             data available.

                             DOI COULD SAVE APPROXIMATELY $10.5 MILLION BY ALLOWING NPS
                             TO PURCHASE ANALOG RADIOS IN THE FUTURE

                             NPS as a whole is only a fraction of the way through its transition to the
                             mandated P25 technology, and many of its users throughout the country
                             would have similar needs as the [Exemption 2]. We found that 60 percent
                             of the NPS [Exemption 2] personnel were non-law enforcement and did not
                             need the encryption or interoperability capabilities of the P25 radios. Using
                             this as a baseline, we estimate that NPS in its entirety could save
                             approximately $10.5 million (ranging between $8.2 million and $14 million)
                             nationwide if it were prospectively allowed to purchase analog narrowband
                             radios for non-law enforcement purposes.

                                                            16
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                               FAILURE TO MEET THE NARROWBAND CONVERSION DEADLINE

                             DOI failed to meet the January 1, 2005 deadline to convert to narrowband
                             radios. Only two of six bureaus, BLM and the U.S. Geological Survey
                             (USGS), completed the transition and met the deadline. The remaining four
                             bureaus are at various stages of completion. As of October 31, 2006, nearly
                             2 years after the required deadline, DOI reported the following
                             implementation statuses for the four remaining bureaus:

                                          ¾    FWS       98% complete
                                          ¾    BOR       92% complete
                                          ¾    NPS       31% complete
                                          ¾    BIA       16% complete

                             Given all of the factors detailed in this report, we conclude that DOI missed
                             the conversion deadline in part because the OCIO mandated P25 digital
                             technology concurrently with the conversion to narrowband without
                             adequately assessing the condition of the current DOI radio environment.


                                     INAPPROPRIATE DOWNGRADING OF A DEPARTMENTAL
                                                  MATERIAL WEAKNESS

                             In FY2000 through FY2003, DOI reported wireless telecommunications as a
                             material weakness in its Annual Report on Performance and Accountability.
                             DOI downgraded this material weakness in FY2004 from a Departmental
                             level to a material weakness for only two bureaus – NPS and BIA. This
                             decision was based on inaccurate information provided by the OCIO. The
                             OCIO’s Annual Statement of Assurance indicated that OCIO had conducted
                             a Management Control Review (MCR) to justify downgrading the material
                             weakness when in fact it had never conducted the review.

                             The results of our audit indicate that the radio telecommunications program
                             should still be classified as a Departmental material weakness.
                             Downgrading this weakness to only NPS and BIA was done without the
                             requisite management review and thus, without basis to do so. Tragically,
                             the downgrade may have reduced DOI’s emphasis on improving this critical,
                             but ailing, program. Therefore, DOI should re-instate radio
                             telecommunications as a Departmental material weakness until the findings

                                                            17
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             in this report have all been addressed and corrected.

                                      DEPARTMENT-WIDE APPROACH NEEDED TO MANAGE
                                                RADIO COMMUNICATION

                             STRUCTURE AND FUNDING OF THE RADIO COMMUNICATIONS PROGRAM
                             The radio communications program is classified as information technology
                             (IT). Consequently, planning and funding for radio equipment is included
                             in the IT Capital Planning and Investment Control (CPIC) process managed
                             by the OCIO. Project approval and funding decisions for radio equipment
                             are made by the IT Investment Review Board. However, the infrastructure
                             is funded and maintained by the facilities staff. Any infrastructure repairs
                             are approved by the Construction Investment Review Board process
                             managed by the Office of Acquisition and Property Management (PAM).
                             Facilities expenditures are managed through a 5-year Deferred Maintenance
                             and Capital Improvement Plan that prioritizes facility projects for repairs,
                             alterations, and new construction. Figure 4 describes the separate processes
                             for funding radio equipment and infrastructure.




HOW DID THE
INFRASTRUCTURE GET
IN SUCH A STATE OF
DISREPAIR?




                                         Figure 4 – Flowchart of Parallel Processes that are Not Integrated
                             An effective radio communication site must include the attendant


                                                            18
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             infrastructure and should be funded and managed as one unit. Since
                             implementation of the Clinger Cohen Act of 1996, radio equipment and
                             infrastructure have been managed by separate DOI entities – the OCIO and
                             PAM. We found that the disconnect between these two managing entities is
                             a major barrier in implementing a successful radio communications program.
                             As a result of this approach, DOI’s radio infrastructure is in disrepair, and
                             the bureaus have been mandated to buy advanced technology that the
                             infrastructure cannot support.

                             The OCIO informed us that it structured the radio operations in this manner
                             to comply with Office of Management and Budget (OMB) requirements for
                             separate financial reporting of IT and facilities investments. However, OMB
                             informed us that the reporting mechanisms should not dictate who operates
                             and maintains the programs.

                             We identified two federal agencies where radio communications were also
                             vital to their program operations. The Department of Justice (DOJ)
                             maintains and funds radio equipment and necessary supporting infrastructure
                             as one overall program. DOJ believes that consolidated funding for radio
                             resources and required infrastructure improves its program operations.
                             Additionally, we found that the Department of Agriculture’s Forest Service
                             (Forest Service) includes towers as part of its radio equipment. The Forest
                             Service has also found that having joint control over these critical aspects of
                             program operations has helped maintain an effective, integrated radio
                             communications system.

                             THE DEPARTMENT SHOULD BETTER UTILIZE ITS CPIC PROCESS
                             TO MANAGE THE RADIO COMMUNICATIONS PROGRAM

                             The Department does not have a comprehensive plan for implementing its
THE OCIO AGREES THAT         radio communications program. The OCIO focused its efforts on developing
IT DOES NOT WANT TO
                             OMB Exhibit 300 as its overall planning document. However, OMB Exhibit
BE CAUGHT IN A
"CATASTROPHIC                300 is only designed to coordinate OMB’s collection of agency information
REPLACEMENT                  for its reports to the Congress to ensure that the business case for
SITUATION" AGAIN.            investments are made and tied to agency planning documents.
                             Ironically, the OCIO has an award-winning1 CPIC process that includes all
                             of the components
                             Because    OMB Exhibit necessary
                                                        300 intoitself
                                                                  implement    and operate
                                                                       is not sufficient as aaplanning
                                                                                               successful   radio
                                                                                                          document,
                             communications
                             the Department needsprogram.    Although
                                                       to prepare        equipment and
                                                                   a comprehensive        facilities
                                                                                       master   radiorequests go
                             through
                             communications program plan. This plan should include a the
                                       the investment   review   boards,   a key component    of       CPIC
                                                                                                  capital  planning
                             process,  DOI   has  not utilized all steps  in the complete   process
                             process, investment analysis, life-cycle replacement, and implementation for
                             implementing
                             plans.           its radio communications program.
                             The CPIC process, depicted in Figure 5, would have captured many of the

                                                            19
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                             components we found lacking in DOI’s radio communications program.




                                           Figure 5 – DOI IT Investment Project Management Process

                             However, the OCIO did not address most of the steps described in the above
                             process with regard to effectively managing its radio communications
                             program, as follows.
                                 ¾ Pre-selection – Establish Users’ Needs: The OCIO did not query
                                   the users to establish their needs. These needs varied among the
                                   different user groups. For example:

                                       •    Law enforcement needs encryption capabilities.
                                       •    Fire fighters need radios that operate in extreme conditions.
                                       •    Back country users need long battery life and light weight
                                            radios.

                                 ¾ Selection – Analyze All Options and Select Best Option: The
                                   OCIO did not consider all options when mandating the emerging P25
                                   technology—on its OMB Exhibit 300 business case analysis it did
                                   not consider narrowband analog technology because it had already
                                   decided to only consider digital technologies.


                                                            20
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                 ¾ Control – Monitor the Process: There was minimal evidence that
                                   the OCIO monitored how the new P25 mandate was affecting the
                                   bureaus’ radio communications programs. The OCIO left monitoring
                                   up to the bureaus to implement and control the radio procurement
                                   and installation process with limited oversight and guidance.

                                 ¾ Evaluate – Reevaluate Based on Results: The OCIO has not re-
                                   evaluated its decision based on any feedback it received from the
                                   bureaus. The bureaus informed the OCIO of the infrastructure
                                   conditions and limitations and the continued problems with the
                                   immature P25 technology; yet the OCIO has not changed the
                                   mandate to purchase only P25 radio technology.

                                 ¾ Steady-State – System Maintenance and Life-Cycle
                                   Replacement: To date, DOI does not have a consistent radio
                                   equipment and system inventory to enable a life-cycle replacement
                                   methodology. On a bureau-by-bureau basis, there are ad-hoc stand-
                                   alone inventories but no centralized process or methodology to be
                                   able to effectively manage a reliable strategy.

                             The CPIC process also specifies that the IT Project Manager selected to
                             manage the designated project be a trained project manager. The current
                             radio communications program manager is not a trained or credentialed
                             project manager.




                                                            21
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                     STAKEHOLDER/USER SUGGESTIONS AND
                             BEST PRACTICES
     As part of our review, we identified suggestions from DOI employees, who are stakeholders
     and/or users of the radio communications program, and best practices used by other
     governmental organizations to improve program operations. The OCIO should consider these
     suggestions and best practices in developing its comprehensive plan to manage the radio
     communications program. A summary is listed below, and a detailed explanation is provided at
     Appendix 4.
     MANAGE AS ONE                      Departments that operate their radio communications operations as
     PROGRAM                            one overall program believe that having operations, maintenance,
                                        and funding for all aspects of the radio communications in one
                                        management function has improved operations.

     ESTABLISH A CONSISTENT One long-range solution to improving and maintaining the radio
     FUNDING MECHANISM      system infrastructure would be to have dedicated maintenance
                            funding managed by DOI’s OCIO on a Department-wide basis.

     ESTABLISH A LIFE-                  A life-cycle equipment replacement program that systematically
     CYCLE REPLACEMENT                  tracks the condition and the useful life of the radio infrastructure
     SYSTEM                             would help project replacement costs.

     CONSOLIDATE TECHNICAL Centralizing radio technicians within a geographic area to track and
     SERVICES CAPABILITY   maintain all the DOI radio systems within that area could reduce
                           costs.

     DIFFERENTIATE                      Each group of radio users has its own communication needs and
     TRAINING BY USER                   level of experience. The various user groups should be identified
     GROUP                              and training should be developed as appropriate for each group.
     SHARE INFRASTRUCTURE               DOI needs to encourage the sharing of existing and future
     WITHIN DOI                         infrastructure among bureaus to avoid duplication of effort and
                                        resources.
     SHARE INFRASTRUCTURE               The bureaus need to take advantage of opportunities to share
     WITH OTHER FEDERAL                 infrastructure with other federal agencies and state and local
     AGENCIES AND STATE                 governments to reduce the overall cost of operating a radio system.
     AND LOCAL
     GOVERNMENTS
                                        The use of alternate technology and initiatives, such as satellite
     CONSIDER ALTERNATIVE               systems, should also be considered when evaluating cost-effective
     TECHNOLOGIES                       alternatives to maintaining or replacing infrastructure.

                                                            22
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                             RECOMMENDATIONS
             We recommend the Deputy Secretary:

             1.    Reinstate wireless telecommunications as a Departmental material weakness
                   until the findings in this report are sufficiently addressed and corrected.

             DOI Response to Draft Recommendation: Did Not Concur

             DOI stated that the Departmental material weakness should not be reinstated because DOI
             has made significant progress in its narrowband implementation. DOI also stated that it
             has made progress in addressing the condition of its radio facilities, including:

                  ¾ BLM addressed the condition of radio towers cited in the report - only six towers
                    remain in poor condition. Documentation on the condition of BLM towers is
                    maintained in FAMS, which documents changes in facility condition based on
                    work performed and updated assessments.

                  ¾ Some bureaus indicated their radio facilities were in fair or good condition. For
                    example, FWS completed comprehensive condition assessments for all of its
                    facilities in 2006 and reported them in good condition.

                  ¾ Bureaus are in the process of identifying inventory data on telecommunications
                    infrastructure in the Federal Real Property Profile, including condition assessments
                    for each asset. The bureaus have been specifically directed to provide complete
                    and accurate information for this database.

                  ¾ Bureaus have identified telecommunication infrastructure-related projects in their
                    Deferred Maintenance and Capital Improvement Five-Year Plans and the
                    establishment of policy requiring condition assessments be performed on assets
                    with a current replacement value exceeding $5,000.

             OIG Analysis of DOI Response: Recommendation Unchanged from Draft Report

             DOI identified progress in narrowband conversion as the basis for downgrading the
             material weakness. However, the subject of the material weakness was the effectiveness
             of the radio telecommunications program, not the narrowband conversion. The
             narrowband conversion project was only part of the solution for improving the program.



                                                            23
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
             DOI also stated that it made progress in addressing the condition of its radio facilities. It
             specifically cites progress made by BLM and FWS. We followed up on the condition of
             towers for these two bureaus and found that the assertions made in the response were
             inaccurate. Specifically:

                  ¾ BLM: FAMS data did not support that only six towers remained in poor
                    condition. Information provided by OCIO and BLM support that at least 19 of the
                    towers remain in poor condition, including 9 towers that were inaccurately
                    recorded in FAMS as being in good condition. We found FAMS data to be
                    inaccurate, incomplete, and unreliable.

                  ¾ FWS: FWS had not completed comprehensive assessments for all of its facilities
                    in 2006. Only 49 percent of FWS’ radio assets had current condition assessments.
                    FWS stated that not all of the radio assets required condition assessments because
                    of their low dollar value. Despite their low dollar value, the facilities that FWS
                    has not assessed could have significant unknown safety hazards.

             Even if DOI had addressed the physical safety concerns associated with its radio
             infrastructure, other significant issues remain that warrant reinstatement of wireless
             telecommunications as a Departmental material weakness. Specifically:

                  ¾ DOI lacks a comprehensive radio plan.

                  ¾ The new radio technology does not effectively meet users’ needs.

                  ¾ DOI continues to purchase P25 digital radios that its infrastructure does not
                    support.

                  ¾ DOI continues to have a fragmented radio communications program that fails to
                    connect the two critical components – infrastructure and equipment.

                  ¾ Four bureaus are not yet in compliance with the federal narrowbanding mandate.

             2.    Assign full responsibility over the radio communications program to the OCIO,
                   including management and funding of all radio equipment and related
                   infrastructure.

             DOI Response to Draft Recommendation: Did Not Concur

             DOI acknowledged that some level of centralization of functions and funding was merited
             and that improvements were needed in the coordination of IT radio and facilities


                                                            24
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
             management. However, DOI stated that the recommendation was too broad and further
             study was needed to determine if aspects of the program should be centrally managed.

             OIG Analysis of DOI Response: Recommendation Unchanged from Draft Report

             In our opinion, coordination between equipment and facilities can best be achieved by
             assigning full responsibility for the radio program to the OCIO.

             Once that has been accomplished, we recommend the CIO:

             3.    Develop a comprehensive management plan for the radio communications
                   program, with input from users and stakeholders, that includes the following
                   components:

                      ¾ The CPIC process to manage the radio communications program;

                      ¾ A Department-wide action plan with milestones to perform necessary site
                        assessments and correct deficiencies;

                      ¾ A determination of the funding necessary to conduct site assessments,
                        correct deficiencies, and perform routine maintenance on the radio
                        infrastructure; and

                      ¾ Short- and long-term strategies for completing the narrowband
                        conversion.

             DOI Response to Draft Recommendation: Concurred

             DOI stated that it is in the process of developing a strategic and operational plan.

             OIG Analysis of DOI Response: Recommendation Unchanged from Draft Report

             DOI needs to provide an action plan with milestones before we can consider the
             recommendation resolved.

             4.     Identify specific user groups (for example, fire fighters, law enforcement, and
                    biologists) and ensure the following:

                      ¾ User needs are thoroughly assessed and addressed.

                      ¾ Guidance that meets all users’ needs is provided and enforced.
                      ¾ All user groups are provided adequate training on radio use.

                                                            25
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                      ¾ Allow users to purchase analog narrowband technology or to develop
                        hybrid systems to address health and safety issues or limitations in
                        infrastructure capabilities.

             DOI Response to Draft Recommendation: Partially Concurred

             DOI agreed that users should be included in developing policy, standards, procedures, and
             training. While DOI agreed there have been challenges in P25 implementation, it
             disagreed with removing the P25 standard to allow for the unlimited purchase of analog

             narrowband technology. P25 is the de-facto standard for radio communications and has
             been adopted by 24 states and 14 federal agencies.

             DOI stated that less expensive alternatives would result in only short-term savings that
             would not address interoperability needs. DOI stated that the draft report linked wasted
             resources to the P25 mandate without sufficient basis. DOI stated that the P25 standard
             should be retained with flexible implementation to address critical health and safety needs.
             Additionally, technological advances have lightened the available equipment and
             increased training efforts are addressing concerns related to P25 use.

             OIG Analysis of DOI Response: Recommendation Revised Based on DOI Response

             We revised the recommendation to allow users to purchase analog narrowband technology
             only to address health and safety issues or infrastructure limitations. We recognize that
             P25 has been implemented successfully in other organizations when adequately planned
             and funded. For example, the U.S. Forest Service had a 10-year implementation plan for
             fully transitioning to P25. If implemented, funded, and managed effectively, P25
             compliant radios may be acceptable for most radio users. In the absence of an effective
             long-term plan, however, it is a waste of funds to force bureaus to purchase P25 compliant
             radios when they cannot be used effectively because of health and safety issues or
             infrastructure limitations.

             5.    Appoint a credentialed project manager to oversee the radio communications
                   program.

             DOI Response to Draft Recommendation: Partially Concurred

             DOI stated that it would pursue the integration of credentialing programs for both program
             management and project management. DOI’s response did not address the need to
             immediately appoint a credentialed project manager to oversee the program.
             OIG Analysis of DOI Response: Recommendation Unchanged from Draft Report

                                                            26
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
             The program has an immediate need for a credentialed project manager who already has
             the requisite skills to manage the program.

             6.    DOI should enforce existing safety procedures, such as posting warning signs,
                   to inform employees and the general public of hazardous site conditions.
             DOI Response to Draft Recommendation: Did Not Concur

             DOI did not concur with our draft recommendation to establish procedures to warn
             employees and the general public of hazardous site conditions. DOI and its bureaus have
             policies and procedures in place. It will engage the bureau Health and Safety Officers in
             ensuring any additional steps that are needed are taken to comply with these policies.
             OIG Analysis of DOI Response: Recommendation Revised Based on DOI Response

             We revised the recommendation to address enforcement of the existing safety policies.

             7.    Implement the following best practices, where appropriate:

                      ¾ Establish a universal property management and radio system network
                        database to better identify existing resources Department-wide and to
                        help identify resource-sharing opportunities within DOI.

                      ¾ Share infrastructure with other federal agencies and state and local
                        governments.

                      ¾ Consider alternate technologies.

                      ¾ Centralize the bureaus’ technical service capabilities to take advantage of
                        expertise and resources Department-wide.

                      ¾ Establish a consistent funding mechanism, such as a working capital fund,
                        to ensure availability of funds for annual maintenance.

                      ¾ Establish a life-cycle replacement program to systematically track the
                        condition and useful life of the radio infrastructure so radio costs can be
                        systematically projected.




                                                            27
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
             DOI Response to Draft Recommendation: Partially Concurred

             DOI stated that it supports implementing best practices. It will expand its sharing of
             infrastructure, will centralize technical service capabilities and is developing a strategic
             and operational plan that will address funding mechanisms. DOI did not agree that it
             should implement a universal property management and radio network database.

             OIG Analysis of DOI Response: Recommendation Unchanged from Draft Report

             The radio program would benefit from the creation of a universal property management
             and radio network database. Information on radio equipment currently is kept separately
             by the bureaus using different systems, making it difficult for the OCIO to identify
             existing resources Department-wide.




                                                            28
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 1



                  OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether DOI and its bureaus are effectively managing
the radio communications program. Specifically:

    ¾ Are they updating aging and unsafe radio infrastructure?

    ¾ Are they coordinating the use of existing resources?

    ¾ Has the mandate to transition to narrowband technology been met?

We examined the radio communications program operations for the specified areas above at the
following entities: Office of the Chief Information Officer’s (OCIO) Telecommunications Systems
Division, National Park Service, Bureau of Land Management, Bureau of Reclamation, Bureau of
Indian Affairs, Fish and Wildlife Service, the U.S. Geological Survey, and National Interagency Fire
Center. We also relied on the work of a specialist in accordance with Government Auditing
Standards issued by the Comptroller General of the United States.

To accomplish our objective, we:

    ¾ Reviewed laws, regulations, policies, and guidance relating to the radio communications
      program.

    ¾ Reviewed the business case documents submitted by the OCIO (OMB Exhibit 300) for the
      narrowband radio conversion effort for FY2000 through FY2004.

    ¾ Interviewed radio communications program staff and technicians and reviewed available
      budget and expenditure documentation as necessary to complete audit procedures.

    ¾ Projected the estimated cost savings of DOI implementing our recommendations by
      calculating the percent of non-law enforcement personnel at the remaining parks to be
      converted (60 percent). We then applied the ratio to the remaining parks to determine an
      estimate of non-law enforcement personnel needing radios. Finally, we subtracted the
      average cost of an analog radio ($433) from the average cost of a P25 radio ($2,017) to
      estimate the savings.




                                                            29
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
    ¾ Examined prior audit reports, Government Performance and Results Act goals, Departmental
      Performance and Accountability Reports, and various other reports issued by stakeholders
      providing suggested improvements on radio communications management.

    ¾ Reviewed existing bureau radio communications site assessment reports as available. These
      reports were prepared by either bureau radio specialists or by contracted specialists. We
      relied on these reports to draw conclusions on the condition of the sites assessed. We also
      verified the qualifications of the contracted specialists.

    ¾ Reviewed and considered radio communications management practices used by the
      Department of Justice and the Department of Agriculture’s Forest Service.

    ¾ Performed tests of management controls sufficient to achieve our audit objectives.

We conducted our audit from February 2005 to December 2006. We completed our audit in
accordance with Government Auditing Standards, issued by the Comptroller General of the United
States.

We did not audit the radio universe or funding data obtained from the bureaus or DOI. We merely
collected this data for background purposes.

We found issues specifically related to BIA that we will report on separately. However, we included
BIA issues in this report that we deemed pertinent to the overall radio communications program.

 DURING THE AUDIT, WE VISITED/CONTACTED
 THE FOLLOWING OFFICES OR ENTITIES [EXEMPTION 2]




                                                            30
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
 [EXEMPTION 2]




                                                            31
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
 [EXEMPTION 2]




                                                            32
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 2


                          ACRONYMS AND ABBREVIATIONS
AMCR                               Alternative Management Control Review
APCO                               Association of Public Safety Communication Officials
BIA                                Bureau of Indian Affairs
BLM                                Bureau of Land Management
BOR                                Bureau of Reclamation
CIO                                Chief Information Officer
CPIC                               Capital Planning and Investment Control
DOI                                Department of the Interior
DOJ                                Department of Justice
FAMS                               Facility Asset Management System
FAST                               Fire and Aviation Safety Team
Forest Service                     Department of Agriculture’s Forest Service
FWS                                Fish and Wildlife Service
FY                                 fiscal year
GAO                                Government Accountability Office
IRM                                Information Resource Management
IT                                 Information Technology
IWN                                Integrated Wireless Network
kHz                                kilohertz
LMR                                land mobile radio
MCR                                Management Control Review
MMS                                Minerals Management Service
NIFC                               National Interagency Fire Center
NPS                                National Park Service
NTIA                               National Telecommunications and Information
                                   Administration
OCIO                               Office of the Chief Information Officer
OFMC                               Office of Facilities Management and Construction
OIG                                Office of Inspector General
OIRM                               Office of Information Resource Management
OMB                                Office of Management and Budget
[EXEMPTION 2]
OSHA                               Occupational Safety and Health Act
PAM                                Office of Acquisition and Property Management
P25                                Project 25
[EXEMPTION 2]
RLO                                Radio Liaison Officer
USGS                               U.S. Geological Survey
VHF                                very high frequency



                                                            33
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 3


                                             PRIOR AUDITS
In the past 7 years, the Government Accountability Office (GAO) issued six reports related to DOI’s
radio communications program. In December 2004, the Office of Inspector General reported on
DOI’s use of wireless technologies. The following reports directly relate to the scope of our review.

    ¾ “Technology Assessment: Protecting Structures and Improving Communications During
      Wildland Fires,” GAO Report No. GAO-05-380, April 2005.

        Once a wildland fire starts, various parties can be mobilized to fight it, including federal,
        state, local, and tribal fire fighting agencies. The ability to communicate among all parties,
        known as interoperability, is essential. GAO found that this ability to communicate is
        hampered because different public safety agencies operate on different radio frequencies or
        use incompatible communications equipment. A variety of existing technologies can help
        link incompatible communications systems and others are being developed to provide
        enhanced interoperability. However, effective adoption of any technology requires planning
        and coordination among all agencies that work together. Without such planning and
        coordination, new investments in communications equipment or infrastructure may not
        improve the effectiveness of communications between agencies. DOI responded that the
        Wildland Fire Leadership Council has commissioned the development of a National Wildland
        Fire Enterprise Architecture team to improve interagency information technology and
        business practices. One of the focus areas for this effort will be geographic information
        systems used in wildland fire management by federal, state, tribal, and local agencies.

    ¾ “Telecommunications Management: More Effort Needed by Interior and the Forest Service
      to Achieve Savings,” GAO Report No. GAO/AIMD-97-67, May 1997.

        GAO stressed DOI’s and the Forest Service's inability to aggressively share radio and
        telecommunications resources in an effort to reduce telecommunication costs throughout the
        two related Departments. GAO also concluded that DOI's Office of Information Resource
        Management (OIRM, the predecessor to the current OCIO), which had responsibility for
        managing and overseeing DOI’s telecommunications activities has not exercised effective
        leadership by establishing a Department-wide program. Instead, OIRM relies on each of
        DOI’s separate bureaus to identify and act on savings opportunities. DOI responded that it
        agreed to implement procedures within DOI and with Forest Service to ensure that all land
        mobile radio system designs are reviewed for sharing or other savings potential prior to radio
        purchase. DOI stated it is supportive of the goal of implementing shared radio systems
        wherever practical and cost-effective.


                                                            34
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
    ¾ OIG Report Number A-IN-MOA-0004-2004 – “Evaluation Report: Department of the
      Interior’s Use of Wireless Technologies,” December 2004.

        We found that the Department’s Wireless Telecommunications Program had a lack of: (1)
        planning for and managing wireless networks and (2) security provisions for wireless
        networks implemented by the bureaus. We found that DOI’s management of wireless
        network technologies was not effective. Specifically, DOI had not acted in a timely manner
        to ensure that all wireless network devices were inventoried, wireless network technologies
        were researched and planned before implementation, and personnel were trained on wireless
        networks and security. DOI also lacked a systematic and comprehensive policy or approach
        to implementing wireless network technology. The OIG, among other actions, recommended
        that DOI establish a strategic plan to manage existing and emerging wireless technologies,
        including security provisions and methods for management controls. Although this report
        refers to wireless computer technologies, the OCIO Telecommunications Systems Division
        manages both this program and the radio communications program. This report identified a
        similar lack of comprehensive program planning and user training as we found in the current
        audit.




                                                            35
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 4



                    STAKEHOLDER/USER SUGGESTIONS AND
                            BEST PRACTICES
                            As part of our review, we identified suggestions from DOI employees, who
                            are stakeholders and/or users of the radio communications program, and best
                            practices used by other governmental organizations to improve program
                            operations. The OCIO should consider these suggestions and best practices
                            in developing its comprehensive plan to manage the radio communications
                            program.

   MANAGE AS ONE            We identified two federal agencies, DOJ and the Forest Service, where radio
   PROGRAM                  communications are vital to their program operations and the safety of their
                            employees and the public. We identified how they operate, maintain, and
                            fund their radio programs. We found that DOJ provides all funds for radio
                            equipment and required infrastructure to the radio communications program.
                            This also includes managing any lease agreements for radio equipment on
                            leased land. Having the operations, maintenance, and funding for all aspects
                            of the radio communications program in one management function has
                            streamlined operating this vital program.

                            The Forest Service includes towers as part of its radio equipment. The Forest
                            Service has found that having joint control over these critical aspects of
                            program operations has helped maintain an integrated radio communications
                            system.

                            OMB stated that even though reporting requirements may be separate for IT
                            and facilities, this does not mean that program management has to be
                            separated as well.

   ESTABLISH A              Officials in the OCIO recognized that the long-range solution to improving
   CONSISTENT               and maintaining the radio system infrastructure was to have dedicated
   FUNDING                  maintenance funding managed by DOI’s OCIO on a Department-wide basis.
   MECHANISM                One option could be to establish a dedicated radio infrastructure working
                            capital fund. This would ensure that funds are available annually for
                            maintenance and not subject to discretionary use by the bureaus.



                                                            36
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
   ESTABLISH A              Directly linked to dedicated maintenance funding is the need for a life-cycle
   LIFE- CYCLE              replacement program. This program would systematically track the condition
   REPLACEMENT              and the useful life of the radio infrastructure so that replacement costs can be
   SYSTEM                   systematically projected. As an example, the Forest Service used a life cycle
                            program to track its infrastructure, repeaters, and radios with specifically
                            identified replacement periods. The Forest Service believes this has enabled
                            each of these programs to accurately assess, estimate, and track costs of
                            current and future maintenance and upgrades.

   CONSOLIDATE              Currently, within the OCIO there is a preliminary proposal to consolidate all
   TECHNICAL                of the bureaus’ technical service capability into one service center or task
   SERVICES                 force. This concept would replace the current practice of each bureau having
   CAPABILITY               its own technical support staff. In this model, radio technicians within a
                            geographic area would track and maintain all the DOI radio systems within
                            that same geographic area regardless of which bureau uses the radio system.

   DIFFERENTIATE            Each group of radio users has its own communication needs and level of
   TRAINING BY              experience. The various user groups should be identified and training should
   USER GROUP               be developed as appropriate for each group. For example, encryption
                            capabilities and features that are important to law enforcement officers do not
                            need to be included in the training for maintenance workers and summer park
                            volunteers. DOI should also ensure that instruction manuals are tailored to
                            the particular user groups and are easily understood.
   SHARE                    DOI needs to encourage the sharing of existing and future infrastructure
   INFRASTRUCTURE           among bureaus to avoid duplication of effort and resources. In recognition of
   WITHIN DOI               this need, the OCIO, with the cooperation of the bureaus’ radio liaisons,
                            started to develop a user-friendly database of infrastructure to better identify
                            sharing opportunities for DOI. However, the project has stalled due to a lack
                            of dedicated staffing to complete the project. Using DOI’s existing property
                            management system, Maximo, was also suggested as an option for tracking
                            available radio inventory and equipment. Bureau staff agree that having a
                            database is critical to their complying with the OCIO directive requiring all
                            bureaus to identify opportunities for radio resource sharing.

   SHARE                    Although analog and P25 technology each have their own strengths and
   INFRASTRUCTURE           weaknesses, both systems are still dependent on a network of infrastructure
   WITH OTHER               for effective radio coverage. Accordingly, taking advantage of opportunities
   FEDERAL                  to share infrastructure with other federal agencies and state and local
   AGENCIES AND             governments is an effective way of reducing the overall cost of operating a
   STATE                    radio system. The following examples demonstrate this practice.
   AND LOCAL
   GOVERNMENTS

                                                            37
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                     ¾ BIA and the State of [Exemption 2] have partnered to allow BIA
                                       to use the State’s radio infrastructure. BIA plans to eliminate its
                                       unsafe radio sites in [Exemption 2] and use the State’s system
                                       instead.

                                     ¾ A Federal law enforcement/emergency responder initiative, led by
                                       the Department of Homeland Security and DOJ, is the Integrated
                                       Wireless Network (IWN). IWN is intended to provide a
                                       consolidated infrastructure that will support encrypted P25
                                       communications and provide a consistent framework for all law
                                       enforcement and emergency responder groups. This will facilitate
                                       reliable communications in emergency situations. This initiative
                                       has worked well in the Northwest, and may be applicable to all of
                                       DOI’s law enforcement activities. The DOJ wireless program
                                       manager estimated that IWN had the potential to reduce its
                                       infrastructure network by half. To its credit, the OCIO has
                                       approved a demonstration project with this IWN initiative in the
                                       [Exemption 2], which, if successful, may open opportunities for a
                                       Department-wide application.

                            All bureaus should be encouraged to look for sharing opportunities with other
                            federal agencies and state and local governments. The OCIO needs to take
                            advantage of these opportunities. GAO made a similar recommendation in its
                            report titled: “Telecommunications Management: More Effort Needed by
                            Interior and the Forest Service to Achieve Savings,” GAO Report No.
                            GAO/AIMD-97-67, May 1997.

   CONSIDER                 The use of alternate technology and initiatives should also be considered
   ALTERNATIVE              when evaluating cost-effective alternatives to maintaining or replacing
   TECHNOLOGIES             infrastructure. For example, the BIA Office of Law Enforcement Services in
                            the State of [Exemption 2] determined that it was more cost-effective to
                            equip its vehicles with satellite-linked P25 mobile radios when converting to
                            narrowband rather than incur the cost of rehabilitating an aging network of
                            repeaters. When officers have to leave their vehicles, they will have P25
                            handheld radios that can transmit to the mobile radio in the vehicle, which in
                            turn sends the transmission via a satellite link to the dispatch center and other
                            law enforcement vehicles.




                                                            38
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 5


                        SCHEDULE OF MONETARY IMPACT

                                                                                          Funds To Be Put
                 Issue                                          Wasted Funds*             To Better Use**
Funds Used To Purchase Radios
Not Meeting User Needs                                              $ 5,156,000

Funds Used To Purchase Unused Digital
Capability                                                           19,800,000

Allowing Remaining Parks To Purchase
Analog Radios as Appropriate                                                                       $10,500,000


TOTAL                                                               $24,956,000                    $10,500,000


*       Wasted funds are those funds which cannot be recovered.

**      Funds to be put to better use are those funds which could be saved if the
        recommendations are implemented.




                                                            39
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 6


                      DOI’S RESPONSE TO DRAFT REPORT




                                                            40
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            41
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            42
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            43
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            44
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            45
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            46
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            47
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                            48
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                                                                                                          Appendix 7



                    STATUS OF AUDIT RECOMMENDATIONS


Recommendations                           Status                                Action Required

         1 and 2                       Unresolved                Reconsider the recommendations; provide a
                                                                 written response stating concurrence or non-
                              Management did not                 concurrence; and provide information on
                              concur                             actions taken or planned, including target
                                                                 dates and titles of the officials responsible
                                                                 for implementation.
             3                         Unresolved                Provide information on actions taken or
                                                                 planned, including target dates and titles of
                              Management concurred;              the officials responsible for implementation.
                              additional information
                              needed

             4                         Unresolved                Consider the revised recommendation;
                                                                 provide a written response stating
                              Management partially               concurrence or non-concurrence; and
                              concurred;                         provide information on actions taken or
                              recommendation revised             planned, including target dates and titles of
                                                                 the officials responsible for implementation.
         5 and 7                       Unresolved                Reconsider the recommendations; provide a
                                                                 written response stating concurrence or non-
                              Management partially               concurrence; and provide information on
                              concurred                          actions taken or planned, including target
                                                                 dates and titles of the officials responsible
                                                                 for implementation.




                                                            49
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
                         Report Fraud, Waste, Abuse,
                            and Mismanagement
                                      Fraud, waste, and abuse in government
                                      concerns everyone: Office of Inspector
                                      General staff, Departmental employees,
                                        and the general public. We actively
                                      solicit allegations of any inefficient and
                                        wasteful practices, fraud, and abuse
                                      related to Departmental or Insular Area
                                     programs and operations. You can report
                                          allegations to us in several ways.




                     By Mail:                   U.S. Department of the Interior
                                                Office of Inspector General
                                                Mail Stop 5341 MIB
                                                1849 C Street, NW
                                                Washington, D.C. 20240

                     By Phone                   24-Hour Toll Free                800-424-5081
                                                Washington Metro Area            703-487-5435

                     By Fax                     703-487-5402

                     By Internet                www.doioig.gov/hotline




                                                            50
This report contained information that was redacted pursuant to 5 U.S.C. §§ 552(b)(2) (high) and (b)(6) of the Freedom of
Information Act.
                                                            .
